EMERGENCY TRANSPORTATION
     SERVICES CONTRACT:
 LESSONS LEARNED FROM THE
2005 GULF COAST HURRICANES
       Office of the Secretary

     Report Number: FI-2007-030
    Date Issued: February 5, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Emergency Transportation                 Date:    February 5, 2007
           Services Contract: Lessons Learned From the
           2005 Gulf Coast Hurricanes, OST
           Report No. FI-2007-030
  From:    Rebecca C. Leng                                         Reply to
                                                                   Attn. of:   JA-20
           Assistant Inspector General for
            Financial and Information Technology Audits
    To:    Acting Director, Office of Intelligence, Security,
            and Emergency Response

           This report presents the results of our review of Federal Aviation Administration
           (FAA) actions in modifying the Department of Transportation’s (DOT) emergency
           transportation services contract for Hurricane Katrina, and, more broadly,
           contracting issues dealing also with Hurricanes Rita and Wilma. Designing and
           administering contracts for emergency transportation services is particularly
           difficult because it compels acquisition officials to anticipate requirements based
           upon the consequences of natural and man-made disasters. Even with the best of
           planning, disasters can cause unprecedented challenges and unforeseen events to
           which officials must respond.

           In the immediate aftermath of disasters, it is often impossible—in the midst of the
           devastation—to determine the full extent and intensity of the damage in order to
           initiate remedial action. Although it is critical that officials act immediately in
           response to a disaster, they must still do all they can to ensure that contracts are
           properly administered and that prices for emergency services are reasonable.
           Reasonable prices are vital to stimulating efficient contractor performance while
           providing appropriate rewards for the risks that they assume.

           Under the Federal Government’s National Response Plan, DOT is responsible for
           coordinating and providing Federal and civil transportation support during
           national emergencies, as directed by the Federal Emergency Management Agency
           and other Federal agencies. Within DOT, the Office of Intelligence, Security, and
           Emergency Response coordinates these efforts. To support the Department’s
           responsibilities, FAA’s Southern Region awarded a competitive contract on an
                                                                                  2


indefinite delivery, indefinite quantity basis to Landstar Express America, Inc. in
2002 to provide air, sea, and land transportation and associated services during
national emergencies. Upon contract activation, personnel at FAA’s Southern
Region performed the contract administration duties.

In the aftermath of Hurricane Katrina, the immediate transportation of people and
vital supplies to and from hurricane-affected areas was critical to saving lives.
The circumstances surrounding the disaster were extraordinary, and FAA Southern
Region management and its contractor provided an unprecedented response to the
crisis as it unfolded. In 2003, during Hurricane Isabel, DOT transported about
700 truckloads of commodities to support areas affected by that storm. In
contrast, in 2005, DOT transported about 23,000 truckloads of commodities in
response to Hurricanes Katrina, Rita, and Wilma—over 30 times the volume of
2003. To respond to the requirement for an increased volume of services, the
contract was modified, increasing the cap from $100 million to $400 million for
calendar year 2005, with up to an additional $100 million added for calendar year
2006.

Our objective was to determine what lessons relating to contract design and
administration could be learned from this disaster and FAA’s response to it. We
performed this audit in accordance with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States and
conducted such tests as we considered appropriate to detect fraud, abuse, or illegal
acts. See Exhibit A for a full explanation of our scope and methodology.


RESULTS IN BRIEF
FAA Southern Region’s emergency transportation services contract successfully
allowed FAA and its contractor to carry out a strong, rapid response during the
2005 Gulf Coast hurricanes. Having an existing competitive contract in place
limited cost risks while at the same time ensuring that transportation services that
were essential in such catastrophic conditions were made available.

However, this disaster also provided lessons about how contracting practices can
be improved. FAA Southern Region personnel told us that contract administration
resources were stretched quite thin and, understandably, that the top priority was
to provide transportation to deliver goods, equipment, and services as quickly as
possible to those in need of assistance.
                                                                                  3


Nevertheless, these experiences demonstrate that, when possible, it is important to
ensure that:

• Administrative costs are properly structured and adaptable to unforeseen and
  changing requirements,

• The profit rate paid to contractors does not exceed 10 percent,

• Contracts are effectively administered, and

• Price reasonableness determinations are periodically performed.

DOT has already taken steps to begin dealing with these issues. For example, the
contracting officer began requesting updated subcontractor quotes for task orders
on February 28, 2006. This practice resulted in better pricing.

To strengthen future emergency contracts, we recommended that the Office of
Intelligence, Security, and Emergency Response ensure that administrative fees
are structured appropriately and that profit rates are appropriate for the types of
contracts awarded and in accordance with sound business practices.

We provided the Office of the Secretary of Transportation (OST) with a copy of
our draft report on December 22, 2006. On January 19, 2007, OST provided its
formal response. OST agreed with our findings and recommendations. OST’s
planned corrective actions are responsive, subject to follow-up provisions in DOT
Order 8000.1C. Our recommendations and a summary of OST’s response can be
found on pages 6 and 7 of this report.

Additionally, in its response, OST stated that FAA’s Southern Region has secured
Landstar’s promise to negotiate, in good faith, changes to profit and administrative
fee rates in the present contract. We request that OST provide us with the revised
profit and administrative fee rates and associated cost savings, if any. OST’s
response is contained in its entirety in the Appendix.


FINDINGS

Improving the Structure of Administrative Costs
Improving the structure of the administrative fee established for the contract and
the modification to the contract would better protect the Government’s interests.
FAA established the administrative fee as a fixed rate, which inappropriately
included both fixed and variable expenses. Unlike variable expenses, fixed
expenses by nature do not fluctuate with changes in work requirements. Using a
                                                                                  4


single fixed rate to reimburse the contractor—comprising both types of
expenses—increases the Government’s vulnerability to overpaying.

Under this scenario, the Government pays more in administrative costs if the costs
incurred by the contractor increase. For future contracts, the fixed administrative
rate structure should be revised to either (1) exclude fixed expenses from the fixed
rate and pay for them separately or (2) pay for the contractor’s actual
administrative costs incurred. Structuring a fee in this manner helps ensure that
the Government is paying fair and reasonable prices.


Limiting Contractor Profit
Since profit is the contractor’s reward for assuming the risks and burdens
associated with a contract, a contract’s profit rate, in general, should be
commensurate with the risk of not recovering the costs that the contractor bears.
For cost–plus–fixed–fee contracts, the contractor assumes minimal risk of not
recovering costs. Therefore, the profit rate determination—both for the base
contract and the modification—should reflect that minimal risk.

The profit rates for FAA’s contract (including the modification) were as high as
15 percent. This exceeds the maximum rate allowed by the Federal Acquisition
Regulation (FAR). While the FAR limits profit on cost-plus-fixed-fee type
contracts to 10 percent, FAA’s acquisition policy sets no limit on profit. We
recognize that FAA is not subject to FAR requirements, as are other DOT
Operating Administrations and other Federal agencies. However, paying more
profit than what is allowed by other DOT Operating Administrations and Federal
agencies without good reason is not a sound business practice. To illustrate the
extent to which FAA paid its contractor over the 10 percent generally accepted
rate, of the 571 task orders issued under this contract in response to Hurricane
Katrina, we reviewed 11 randomly selected orders that had a total value of about
$27 million. About $3 million of that amount was profit. Had the profit rate been
limited to 10 percent for these 11 task orders, the Government could have avoided
paying over $565,000 (see Exhibit B).


Effective Contract Administration
FAA awarded task orders on this contract on a cost-plus-fixed-fee basis. This
method is designed to reimburse the contractor for profit at fixed amounts.
However, the contract was not administered in this way. Instead of establishing
profit amounts for each task order before the work started, FAA allowed the
amounts to remain uncertain until work was substantially completed.
Administering a contract in this manner results in the application of a cost-plus-
percentage-of-cost contract, which is prohibited by FAA acquisition policy. These
                                                                                 5


contracts offer no incentive for contractors to control costs because their profits
increase in direct proportion to the costs of services performed.

For example, while FAA authorized the use of 100 water tankers on
September 6, 2005, it did not concurrently issue a task order establishing a fixed-
fee amount that the contractor would be paid. It was not until November 14th that
FAA issued the task order. The delay essentially changed the character of the
contract from cost-plus-fixed-fee to cost-plus-percentage-of-cost because, rather
than setting the amount before work commenced, the fixed-fee amount was set
after the work had been substantially completed. This type of arrangement
provides an incentive for the contractor to overspend because as the total cost
increases, so does the fee.

FAA procurement officials discontinued the practice in October 2005 and
formalized the procedures in March 2006. We verified that task orders issued
since then were administered properly. An FAA contracting official stated that
administering the contract as a cost-plus-percentage-of-cost contract was a
consequence of FAA Southern Region’s being overtasked by the unprecedented
level of response needed as a result of Hurricane Katrina’s devastation.


Determining Price Reasonableness
FAA’s acquisition policy requires that current quotes and pricing information be
obtained for each task order modification. However, contracting officials did not
regularly require that the contractor provide revised subcontractor quotes when
task orders were modified for services not included in the original task order or
when the performance period was extended. FAA officials eventually took
corrective action by requesting updated subcontractor quotes, and considerably
lower prices were negotiated.

For example, on September 2, 2005, the contractor provided FAA with
subcontractor quotes for four refrigerated trucks with power supplies. FAA
awarded a task order for the trucks at a value of $120,481. Over time, FAA
modified the task order by more than a factor of 10—to a value of $1,372,370—to
increase service and extend the period of performance by an additional 10 months.
FAA awarded these task order modifications without requiring that the contractor
again provide FAA with subcontractor quotes, in direct contravention of FAA’s
own acquisition policy and contract terms.

To illustrate the extent of this problem, we reviewed nine judgmentally selected
task orders to identify instances in which the initial scope of work was modified.
We found that significant modifications occurred for three of the nine task orders
and that the contractor did not provide updated subcontractor quotes. Beginning
in February 2006, FAA obtained new subcontractor quotes for modifications
                                                                                                                     6


awarded for the three orders. Based on the three orders we reviewed, FAA could
have avoided paying over $273,000 had contracting officials obtained the updated
quotes sooner. 1 Exhibit C provides details on how we calculated the cost
avoidance.

Again, the stretching of FAA Southern Region’s resources to provide the
unprecedented level of response was the cause of the Agency’s not obtaining
current pricing sooner for the modifications.


FAA Has Initiated Corrective Action
During the audit, FAA officials ensured that fixed fees were awarded before
beginning work on task orders. Further, on its own initiative, FAA began
obtaining updated subcontractor quotes for task orders modified on or after
February 1, 2006, resulting in better pricing. For example, for one task order, the
updated contractor proposal showed a reduction in subcontractor quotes by
$350 per day per truck—a 25-percent reduction from previous daily rates. This
resulted in savings of $76,160.          Accordingly, we are not making any
recommendations in these areas. DOT officials are coordinating with FAA on
how to better structure DOT’s future emergency transportation contract, including
using more flexible contract terms, such as providing that indirect rates be cost-
reimbursable and subject to annual audits.


RECOMMENDATIONS
In order to strengthen future emergency transportation contracts, we recommend
that the DOT Acting Director, Office of Intelligence, Security, and Emergency
Response:
      1. Ensure that administrative fees are structured appropriately for future
         emergency contracts.

      2. Negotiate profit rates for future emergency contracts that are appropriate
         for the types of contracts awarded and in accordance with sound business
         practices.




1
    In assessing task order modifications, we limited our analysis to modifications made more than 120 days after award
    of the task order. The original task orders were awarded shortly after August 29, 2005—the date that Hurricane
    Katrina struck. In our opinion, such a significant lapse from the time between the orders and later modifications
    should have triggered a concern that conditions—such as initial demand—might have changed, which should have
    resulted in lower unit prices.
                                                                                   7


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

A draft of this report was provided to OST on December 22, 2006. On
January 19, 2007, OST provided its formal response, which is contained in its
entirety in the Appendix. OST agreed with our findings and concurred with our
recommendations. OST indicated that while the Landstar contract provided a
useful mechanism to expedite transportation services in response to the
unprecedented devastation of that year’s Gulf Coast hurricanes, post event
analyses, including those by the Office of the Inspector General, have identified
areas where improvements can be achieved. OST intends to address those areas
both during the ongoing recompetition for the next emergency transportation
services contracts and in further administration of the present contract.

Management responses to our recommendations are summarized below.

Recommendation 1: OST concurred. The Department has ongoing efforts
directed towards completing the next emergency transportation services contract.
During this contracting effort, the Department will assess the administrative fee
structures with the intention of providing a fee structure in the new contract that
helps to ensure that the Federal government is paying fair and reasonable prices.
The Department intends to complete the contracting effort before the end of fiscal
year (FY) 2007. Also, OST indicated that the FAA Southern Region has secured
Landstar's promise to negotiate in good faith changes to profit and administrative
fee rates in the present contract.

Recommendation 2: OST concurred. During the ongoing contracting process for
the next emergency transportation services contract, DOT will ensure that any
negotiated profit rates are appropriate for the risk inherent in the type of contract
proposed and consistent with applicable regulations. The Department intends to
complete the contracting effort before the end of FY 2007.


ACTIONS REQUIRED
The actions planned satisfy the intent of our recommendations, subject to
follow-up provisions in DOT Order 8000.1C. We request that OST provide us
with the revised profit and administrative fee rates and associated cost savings, if
any, resulting from negotiations with Landstar in the present contract.
                                                                                  8


We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me or Mark H. Zabarsky, Deputy Assistant Inspector General for
Financial Management Audits, at (202) 366-1496.


                                         #

cc: Assistant Secretary for Budget
     and Programs/Chief Financial Officer
    Acting Assistant Secretary for Administration
    Senior Procurement Executive
    Southern Regional Administrator, FAA
    Martin Gertel, M–1
    Anthony Williams, ABU-100
                                                                                 9




EXHIBIT A. SCOPE AND METHODOLOGY

We performed this audit from March through November 2006, at DOT
Headquarters in Washington, D.C., and at the FAA Southern Region in Atlanta,
Georgia. The audit was conducted in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse, fraud, or illegal acts.

To determine lessons learned as they relate to contract design and administration,
we visited FAA’s Southern Region and reviewed contract and selected task order
files. We also discussed with the contracting officer the methods used for
administering task orders.

In assessing the price analysis performed for the contract modification, we
reviewed the contract and modification files and selected task order files for
evidence of price analyses. In assessing whether task orders were fairly priced, we
reviewed initial, updated, and final quotes; purchase requisitions; and associated
files and support for nine orders for which FAA officials told us they had obtained
revised quotes. We assessed FAA’s contract administration procedures for the
nine task orders.

We researched various sources of guidance, including FAA’s Acquisition
Management System; the United States Code; and private contracts databases and
texts, such as Wifcon Forum and Cinibic and Nash’s “Administration of
Government Contracts.” Further, we consulted with knowledgeable experts, such
as professors at the Defense Acquisition University and reviewed Government
Accountability Office decisions to assess administration of the contract. We
reviewed FAA’s revised March 2006 procedures for administering and awarding
task orders, including determining when profit and administrative management
rates were applied.

In reviewing the application of profit and profit rate, we reviewed a random
sample of 11 task orders awarded through March 2006. We compared the
effective rates awarded in the task orders with the profit limit in the Federal
Acquisition Regulation and computed potential savings for the 11 orders.

We did not rely on automated databases as part of our audit. All contract actions
and task orders reviewed were verified to the contract and task order files.




Exhibit A. Scope and Methodology
                                                                                      10




EXHIBIT B. COST AVOIDANCE USING 10-PERCENT PROFIT
RATE

To calculate the potential cost avoidance based on a profit rate of 10 percent, we:

• Determined the actual amount of profit for each of the 11 task orders sampled
  (column A).

• Determined the profit for each of the 11 task orders using the 10-percent profit
  rate cap (column B).

• Took the difference between the actual profit amount in column A and the 10-
  percent profit amount in column B. This represents the potential cost
  avoidance had the profit rate been limited to 10 percent (column C).


            Table 1. Estimated Cost Avoidance Based on
                       10-Percent Profit Rate
         Sample       (A) Actual           (B) Profit if 10%    (C) Potential Cost
                      Profit Paid           Rate Applied         Avoidance if 10%
                                                                Profit Rate Applied
                                                                      (A-B=C)
            1           $2,023,236                $1,633,669               $389,567
            2             $466,730                  $376,516                $90,214
            3               $16,200                  $13,068                 $3,132
            4             $149,836                  $120,868                $28,968
            5               $29,609                  $24,082                 $5,527
            6               $30,090                  $24,273                 $5,817
            7               $13,624                  $11,947                 $1,677
            8               $13,445                  $11,801                 $1,644
            9                $6,750                    $5,445                $1,305
           10                  $609                     $491                   $118
           11             $193,596                  $156,168                $37,428
           Total         $2,943,725               $2,378,328               $565,397
       Source: FAA data and OIG analysis




Exhibit B. Cost Avoidance Using 10-Percent Profit Rate
                                                                                    11




EXHIBIT C. ESTIMATED COST AVOIDANCE FROM UPDATED
QUOTES

To calculate the potential cost avoidance based on the three task orders with
quotes that should have been revised, we:

• Determined the total cost of the task order using the original quotes as stated in
  the task orders (column A).

• Determined the total cost of the task order using the updated quotes and
  obtained the quotes from the task orders revised after FAA took corrective
  action requesting the quotes (column B).

• Took the difference between the total cost from the original quotes in column
  A and the total cost from the updated quotes in column B. This represents the
  potential cost avoidance had the contractor requested updated quotes sooner
  (column C).

    Table 2. Estimated Cost Avoidance From Updated Quotes
            Sample    (A) Original Quote:     (B) Updated     (C) Total Potential
                          Total Costs         Quote: Total     Cost Avoidance
                                                 Costs             (A-B=C)
               1                 $481,440          $312,936            $168,504
               2                 $337,008          $252,756             $84,252
               3                 $295,800          $275,400             $20,400
              Total            $1,114,248          $841,092            $273,156
          Source: FAA data and OIG analysis




Exhibit C. Estimated Cost Avoidance From Updated Quotes
                                                                    12




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Mark Zabarsky                          Deputy Assistant Inspector
                                        General for Financial
                                        Management Audits

Terrence Letko                         Program Director

Leonard Meade                          Project Manager

Jill Cottonaro                         Management and Program
                                       Analyst

Leslie Mitchell                        Auditor

Narja Hylton                           Auditor

Michael P. Fruitman                    Communications Adviser

Seth Kaufman                           Associate Counsel

Andrea Nossaman                        Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                    13




           APPENDIX. MANAGEMENT COMMENTS


           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           ACTION: Comments on Office of Inspector General (OIG)
           Draft Report – Emergency Transportation Services Contract:        Date:
                                                                                      Janury 19, 2007
Subject:
           Lessons Learned From the 2005 Gulf Coast Hurricanes

           Roger Bohnert
                                                                          Reply to
  From:    Acting Director, Office of Intelligence, Security,             Attn. of:
            and Emergency Response

     To:   Rebecca C. Leng
           Assistant Inspector General for
            Financial and Information Technology Audits

           Under the National Response Plan and Emergency Support Function (ESF) #1, the
           Department of Transportation is responsible for providing transportation support in
           response to domestic Incidents of National Significance. The Department’s role is
           focused exclusively on providing transportation support for the Federal Emergency
           Management Agency (FEMA) and other Federal agencies. The Department’s top priority
           at the time of an emergency is placed on providing the transportation services necessary
           to deliver goods, equipment, and services as quickly as possible to those in need of
           assistance.

           The Department appreciates the OIG’s recognition of the complexities involved in
           designing and administering the contracts for emergency transportation services.
           Balancing the need for expeditious and effective response to a wide range of emergencies
           in diverse locales within a contract structure that offers reasonable prices and protects
           taxpayer interests is indeed a complex endeavor. During the 2005 Hurricane season,
           DOT was fortunate to have in place the Landstar contract administered by the Federal
           Aviation Administration’s Southern Region. While the contract provided a useful
           mechanism to expedite transportation services in response to the unprecedented
           devastation of that year’s Gulf Coast hurricanes, post event analyses, including those by
           the OIG, have identified areas where improvements can be achieved. We intend to
           address those areas both during the ongoing recompetition for the next emergency
           transportation services contracts and in further administration of the present contract.

           Recommendations and Response:

           OIG recommends that the Office of Intelligence, Security, and Emergency Response:



           Appendix. Management Comments
                                                                                        14


Recommendation 1: Ensure that administrative fees are structured appropriately for
future emergency contracts.

Response: Concur. The Department has ongoing efforts directed towards completing
the next emergency transportation services contract. During this contracting effort, the
Department will assess the administrative fee structures with the intention of providing a
fee structure in the new contract that helps to ensure that the Federal government is
paying fair and reasonable prices. The Department intends to complete the contracting
effort before the end of fiscal year (FY) 2007. In the meantime, in consideration of OIG
recommendations in respect to future contracts, the FAA Southern Region has secured
Landstar's promise to negotiate in good faith changes to profit and administrative fee
rates in the present contract.

Recommendation 2: Negotiate profit rates for future emergency contracts that are
appropriate for the types of contracts awarded and in accordance with sound business
practices.

Response: Concur. During the ongoing contracting process for the next emergency
transportation services contract, DOT will ensure that any negotiated profit rates are
appropriate for the risk inherent in the type of contract proposed and consistent with
applicable regulations. The Department intends to complete the contracting effort before
the end of FY 2007.


cc:    Ms. Stefani, B-2
       Mr. Gertel, M-1
       Mr. Litman, M-60
       Ms. Briatico, ABU




Appendix. Management Comments
